NO. 19-511
IN THE

Supreme Court of the United States
FACEBOOK, INC.,

Petitioner,

v.

NOAH DUGUID, INDIVIDUALLY AND ON BEHALF OF HIMSELF AND ALL OTHERS SIMILARLY
SITUATED,

Respondent,

and
UNITED STATES OF AMERICA,

Respondent-Intervenor.
ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

WORD COUNT CERTIFICATION
As required by Supreme Court Rule 33.l(h), I hereby certify that the Amici

Curiae National Consumer Law Center, Consumer Federation of America, and
Consumer Reports in Support of Respondent Duguid complies with the word
limitations, as it contains 7,623 words. I declare under penalty of perjury that the
foregoing is true and correct.
/s/

Tara Twomey

Tara Twomey
Counsel of Record
National Consumer Law Center
7 Winthrop Square
Boston, MA 02110
(617) 542-8010
TTwomey@me.com
Counsel for Amici Curiae
Dated: October 23, 2020

